                Improvements Are Needed for Subsequent
                   Integrated Financial System Testing

                                    March 2004

                       Reference Number: 2004-10-052




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       March 1, 2004




       MEMORANDUM FOR CHIEF FINANCIAL OFFICER


       FROM:                        Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

       SUBJECT:                     Final Audit Report - Improvements Are Needed for Subsequent
                                    Integrated Financial System Testing (Audit # 200310027)


       This report presents the limited results of our review of the Internal Revenue Service’s
       (IRS) planned Integrated Financial System (IFS). The overall objective of this audit was
       to determine whether the IFS, when implemented, would function as intended to provide
       administrative financial management information that is essential for financial statement
       preparation as well as useful to IRS managers and others. Because the IRS
       rescheduled a material amount of the IFS testing, our original audit scope was
       significantly reduced. This report presents our audit observations and evaluations
       through the initial testing phase of the IFS.
       The implementation of the proposed IFS will greatly affect the way the IRS records and
       reports both administrative and custodial accounting transactions. Further, this system
       represents a key element of the corrective actions being taken by the IRS to ensure its
       accounting system is in compliance with the Joint Financial Management Improvement
       Program’s (JFMIP)1 Federal Financial Management System Requirements2 and
       provides accurate and timely financial information for management decision making.
       In summary, the IFS project has experienced delays in system testing which have
       caused the IRS to reschedule the implementation of Release 1 from October 2003 to

       1
         The JFMIP is a joint undertaking of the United States Department of the Treasury, the General Accounting Office,
       the Office of Management and Budget, and the Office of Personnel Management, working in cooperation with each
       other and other agencies to improve financial management practices in the Federal Government.
       2
         The Federal Financial Management System Requirements are a series of publications prepared by the JFMIP as
       the key requirements that agency systems must meet to be substantially compliant with generally accepted
       accounting principles for the Federal Government.
                                                         2


April 2004.3 Because of this, we were unable to fully evaluate the functionality of the
IFS-defined requirements or other implementation activities. We were, however, able to
observe and evaluate a select number of Release 1 System Integration Testing (SIT)
Cycle 14 test cases and test scripts.5
Based on our limited tests, we determined that the IFS testing team developed test
cases that, for the most part, contained a set of conditions, data, and expected results
for a particular test objective; a corresponding test script to provide a series of
instructions to carry out the test case; and a test folder to document the results of the
testing process. Further, the testing team prepared a Requirements Traceability
Verification Matrix (RTVM) in an effort to map accounting requirements to the
corresponding test cases. However, we determined that some test cases and test
scripts were incorrect or incomplete and the RTVM did not always provide an accurate
traceability of requirements to be tested.
We recommended that the Chief Financial Officer (CFO), in concert with IFS project
management, ensure that subsequent SIT test plans, cases, and scripts are complete
and accurate and that all applicable financial system requirements can be readily
accounted for during the testing process.
Management’s Response: IRS management agreed with the recommendation
presented in the report. The CFO has instituted a number of controls and procedures
that have been applied to subsequent SIT Cycles. The controls and procedures include
a concurrence process for each test plan that provides multiple reviews, rewrites, and
approval of test plans prior to execution; training sessions for all SIT testers to explain
general ledger postings and requirements; and creation and maintenance of a current
list of requirements along with verification that all requirements are adequately tested.
The RTVM has been reviewed and validated by the IRS and is reviewed weekly to
ensure all requirements are properly mapped to test plans and all changes are reflected
in the document. Additionally, the IRS Subject Matter Experts will reverify that
requirements are mapped properly and have been met by the functionality tested before
the test plan is approved. An approval signature is required on each test case for it to
be considered passed. Management’s complete response to the draft report is included
as Appendix IV.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendation. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




3
  Subsequent to the conclusion of our fieldwork, the IRS announced the IFS implementation date has been further
revised to October 2004.
4
  The goal of SIT is to increase the probability that the IFS application will behave as expected under all defined
circumstances and meet defined requirements. SIT Cycle 1 includes the creation of preliminary data on the system,
the change and display of that data, and the recordation of simple financial transactions.
5
  A test script is a series of instructions that carry out the test case contained in the test plan.
                                 Improvements Are Needed for Subsequent
                                    Integrated Financial System Testing




                                                  Table of Contents


Background ............................................................................................... Page 1
Integrated Financial System Implementation Has Been Rescheduled
to Complete System Testing and Development......................................... Page 2
Some Test Cases and Scripts Were Incomplete or Inaccurate, and
Some System Requirements Could Not Be Easily Traced ....................... Page 3
         Recommendation 1: ....................................................................... Page 5

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 7
Appendix II – Major Contributors to This Report........................................ Page 9
Appendix III – Report Distribution List ....................................................... Page 10
Appendix IV – Management’s Response to the Draft Report .................... Page 11
             Improvements Are Needed for Subsequent
                Integrated Financial System Testing

                      The Internal Revenue Service (IRS) is in the midst of
Background
                      Business Systems Modernization (BSM), a major
                      technological and business process transformation program.
                      BSM will radically change the IRS’ approach to satisfying
                      its customers – the taxpayers.
                      To achieve legislative compliance and provide critical
                      financial management information, the IRS selected a
                      commercial-off-the-shelf software package, designated as
                      the Integrated Financial System (IFS), as a cost-effective
                      alternative to improve its financial systems. One basic, yet
                      significant, requirement of the IFS is that the system is to be
                      compliant with the Joint Financial Management
                      Improvement Program’s (JFMIP)1 Federal Financial
                      Management System Requirements.2 The IRS also expects
                      the IFS to resolve several longstanding financial
                      management issues identified by the General Accounting
                      Office (GAO) during the annual financial statement audits.
                      The IRS plans to implement the IFS in at least four releases
                      over a period of several years. Release 1 will include the
                      JFMIP core accounting functions of Accounts Payable,
                      Accounts Receivable, General Ledger Management, Budget
                      Execution, Cost Management (also referred to as Cost
                      Accounting), and Financial Reporting, as well as Budget
                      Formulation. Release 1 will also include the mandated
                      Health Coverage Tax Credit and Custodial Accounting
                      functionality. Subsequent releases will provide for
                      additional financial management functions, including
                      Property, Procurement, and Performance Management, and
                      enhancements to the cost accounting and finance modules.
                      To increase the probability that the IFS will function as
                      intended and meet defined requirements, the IRS is working
                      with a contractor to conduct System Integration Testing


                      1
                        The JFMIP is a joint undertaking of the United States Department of
                      the Treasury, the General Accounting Office, the Office of Management
                      and Budget, and the Office of Personnel Management, working in
                      cooperation with each other and other agencies to improve financial
                      management practices in the Federal Government.
                      2
                        The Federal Financial Management System Requirements are a series
                      of publications prepared by the JFMIP as the key requirements that
                      agency systems must meet to be substantially compliant with generally
                      accepted accounting principles for the Federal Government.
                                                                                   Page 1
                        Improvements Are Needed for Subsequent
                           Integrated Financial System Testing

                                 (SIT) prior to deploying the IFS. System testing is an
                                 essential component of the Enterprise Life Cycle, which
                                 governs system development activities and is required by
                                 IRS procedures. The SIT test plan3 provides that all test
                                 cases will describe the purpose of the test, any
                                 pre-conditions or post-conditions, the requirements to be
                                 verified, and the satisfaction criteria. The satisfaction
                                 criteria will state the conditions required for a test case to
                                 pass. Before testing can begin, test cases and scenarios
                                 should be developed, reviewed, and approved, and system
                                 requirements should be traced to test cases.
                                 This on-line audit is a follow-on review to our prior audit of
                                 the IFS requirements definition that was issued in
                                 August 2003.4 The audit was conducted in accordance with
                                 Government Auditing Standards at the IRS National
                                 Headquarters in the office of the Chief Financial Officer
                                 (CFO) and the contractor’s testing site located in
                                 Lanham, Maryland, from April through September 2003.
                                 Detailed information on our audit objective, scope, and
                                 methodology is presented in Appendix I. Major
                                 contributors to the report are listed in Appendix II.
                                 The IRS has rescheduled the implementation of the IFS
Integrated Financial System
                                 Release 1 from October 2003 to April 2004, due in part to
Implementation Has Been
                                 delays in system testing.5 Thus, we were unable to fully
Rescheduled to Complete System
                                 evaluate the functionality of IFS-defined requirements or
Testing and Development
                                 other implementation activities. Accordingly, we limited
                                 the scope of this audit to observation and evaluation of SIT
                                 Cycle 1 test cases and scripts.6 We will continue to review
                                 the IRS’ subsequent test phases to fully accomplish our
                                 original objective of determining whether the IFS will
                                 provide administrative financial management information
                                 essential to financial statement preparation and management
                                 decision making.


                                 3
                                   Integrated Financial Systems – System Integration Test Plan Draft -
                                 Version 1.1, dated July 21, 2003.
                                 4
                                   Requirements Definition of the Integrated Financial System
                                 (Reference Number 2003-10-179, dated August 2003).
                                 5
                                   Subsequent to the conclusion of our fieldwork, the IRS announced that
                                 the IFS implementation date has been further revised to October 2004.
                                 6
                                   A test script is a series of instructions that carry out the test case
                                 contained in the test plan.
                                                                                                 Page 2
                         Improvements Are Needed for Subsequent
                            Integrated Financial System Testing

                                  The IFS system testing was split into two cycles. The SIT
                                  Cycle 1 testing was very basic and involved the creation of
                                  preliminary data on the system, the change and display of
                                  that data, and the recordation of simple financial
                                  transactions. The purpose of SIT Cycle 1 testing, as
                                  described to us by IRS officials and contractors, was to
                                  allow testers to become familiar with the testing process and
                                  environment to facilitate a more focused SIT Cycle 2
                                  testing.
                                  Conversely, the SIT Cycle 2 testing is very comprehensive
                                  and includes test transactions run with real data from the
                                  initial requesting entry to final payment. Further, SIT
                                  Cycle 2 testing retests most, if not all, of the tests from
                                  Cycle 1. The purpose of SIT Cycle 2 testing is to provide
                                  conclusions concerning the new system’s functionality and
                                  to give assurances the system will work as intended.
                                  We selected nine financial requirement areas for evaluation
Some Test Cases and Scripts
                                  during the IFS testing phase based on findings reported in
Were Incomplete or Inaccurate,
                                  the IRS’ financial statement audit reports, the GAO
and Some System Requirements
                                  Standards for Internal Control in the Federal Government,
Could Not Be Easily Traced
                                  and overall functionality risk. We observed and evaluated a
                                  selection of SIT Cycle 1 test cases and results corresponding
                                  to those areas; they are listed in Appendix I.
                                  Based on our limited tests, we determined the IFS testing
                                  team developed test cases that, for the most part, contained a
                                  set of conditions, data, and expected results for a particular
                                  test objective; a corresponding test script to provide a series
                                  of instructions to carry out the test case; and a test folder to
                                  document the results of the testing process. Further, the
                                  testing team prepared a Requirements Traceability
                                  Verification Matrix (RTVM) in an effort to map accounting
                                  requirements to the corresponding test cases.
                                  However, we determined some test cases and test scripts
                                  were incorrect or incomplete and the RTVM did not always
                                  provide an accurate traceability of requirements to be tested.
                                  Specifically, at least 1 of the following 9 conditions was
                                  observed in 1 or more of the 23 SIT Cycle 1 test cases
                                  reviewed:
                                     •   Test cases did not identify the post-condition or
                                         satisfaction criteria to be met.
                                                                                           Page 3
Improvements Are Needed for Subsequent
   Integrated Financial System Testing

                •    Test scripts contained questionable United States
                     Standard General Ledger (USSGL) accounts for
                     transaction posting or did not contain both budgetary
                     and proprietary accounts when appropriate.
                •    Tests, when completed and passed, did not give
                     evidence that the IFS requirement was validated.
                •    Test scripts or test set7 information provided was not
                     consistent.
                •    Test folders showed test results as passed even
                     though satisfaction criteria had not been met.
                •    Test cases had no requirements listed for testing.
                •    Test cases listed requirements not mapped to the
                     RTVM.
                •    Requirements mapped to a test in the RTVM were
                     not listed on the test case.
                •    There was no straightforward way to verify that all
                     applicable financial system requirements were
                     included in the RTVM.
         We identified several financial management activities or
         transactions that could be adversely affected by these
         incomplete or inaccurate test processes. For example:
                •    The IFS test developers did not include the
                     satisfaction criteria for the following test case
                     scenarios: capturing Federal income tax-related
                     data, posting user fee deposits, posting depreciation
                     to individual cost centers, and recording audit trail
                     information.
                •    The test developers included questionable or
                     incomplete USSGL accounts for the following test
                     scripts: posting expenses and capitalized assets in
                     the same transaction, posting user fee deposits, and
                     using cancelled appropriations.
         Without explicit, well-defined satisfaction criteria and the
         identification of specific USSGL account information, the


         7
             A test set is a collection of related test cases.
                                                                    Page 4
Improvements Are Needed for Subsequent
   Integrated Financial System Testing

         testers may be hindered from fully completing the test as
         intended and may not accurately evaluate test results. By
         following defined testing processes, the IRS can better
         ensure the IFS will function as intended to provide
         administrative financial management information that is
         essential for financial statement preparation and
         management decision making.
         We recognize that the IRS and contractor are continually
         reassessing and, where necessary, modifying IFS tests as
         system development activities proceed toward final
         implementation. Therefore, we are providing these
         observations in this report to assist management in
         identifying conditions that should be avoided or anticipated
         as the IRS moves into subsequent SIT testing phases.
         We have also shared these audit results with our Information
         Systems Program audit staff, who are responsible for
         evaluating systems modernization from an information
         technology perspective, and who have previously reported
         similar concerns about testing from both a project-specific
         and enterprise-wide viewpoint.8 We will continue to
         coordinate our audit efforts on the IFS during our
         subsequent reviews.
         Successful implementation of the IFS will require the
         collective and collaborative efforts of the CFO, Business
         Systems Modernization Office, and contractor. Ultimately,
         the CFO, as the IRS executive owner of the IFS, has the
         fiduciary responsibility to ensure that the IFS will function
         as intended. Therefore, complete and accurate testing of the
         IFS plays a critical role in the CFO’s discharge of that
         responsibility.

         Recommendation

         1. The CFO, in concert with IFS project management,
            should ensure that subsequent SIT test plans, cases, and
            scripts are complete and accurate and that all applicable

         8
          Testing Practices for Business Systems Modernization Projects Need
         Improvement (Reference Number 2003-20-178, dated September 2003)
         and Risks Are Mounting as the Integrated Financial System Project
         Team Strives to Meet an Aggressive Implementation Date (Reference
         Number 2004-20-001, dated October 2003).
                                                                     Page 5
Improvements Are Needed for Subsequent
   Integrated Financial System Testing

            financial system requirements can be readily accounted
            for during the testing process.
         Management’s Response: The CFO has instituted a number
         of controls and procedures that have been applied to
         subsequent SIT Cycles. The controls and procedures
         include a concurrence process for each test plan that
         provides multiple reviews, rewrites, and approval of test
         plans prior to execution; training sessions for all SIT testers
         to explain general ledger postings and requirements; and
         creation and maintenance of a current list of requirements
         along with verification that all requirements are adequately
         tested. The RTVM has been reviewed and validated by the
         IRS and is reviewed weekly to ensure all requirements are
         properly mapped to test plans and all changes are reflected
         in the document. Additionally, the IRS Subject Matter
         Experts will reverify that requirements are mapped properly
         and have been met by the functionality tested before the test
         plan is approved. An approval signature is required on each
         test case for it to be considered passed.




                                                                 Page 6
                              Improvements Are Needed for Subsequent
                                Integrated Financial System Testing

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

We originally planned to determine whether the Integrated Financial System (IFS), when
implemented, would function as intended to provide administrative financial management
information that is essential for financial statement preparation as well as useful to Internal
Revenue Service (IRS) managers and others. However, IFS testing efforts were delayed, and we
were unable to complete the initial aspects of our original plan. The scope of this audit was
limited to observation and evaluation of IFS System Integration Testing (SIT) Cycle 11 testing of
Release 1 requirements for the administrative accounting activities of the IFS, as follows:
I.      Selected a judgmental sample of nine key Joint Financial Management Improvement
        Program (JFMIP)2 financial requirement areas, based on findings reported in the IRS’
        financial statement audit reports, the General Accounting Office (GAO) Standards for
        Internal Control in the Federal Government, and overall functionality risk. The areas
        included:
             •   Fixed Assets.
             •   Receipt and Acceptance.
             •   Reimbursable Work Agreements.
             •   Multi-Year Reporting.
             •   Cost Accounting.
             •   Travel Advances and Obligations.
             •   Taxable Transactions.
             •   Financial and Treasury Information Executive Repository Reporting.
             •   Audit Trail.
II.     For each of the nine JFMIP financial requirement areas, we identified relevant:
             •   JFMIP standards.
             •   Statement of Federal Financial Accounting Statements standards, technical
                 releases, or exposure drafts.

1
  The goal of SIT is to increase the probability that the IFS application will behave as expected under all defined
circumstances and meet defined requirements. SIT Cycle 1 includes the creation of preliminary data on the system,
the change and display of that data, and the recordation of simple financial transactions.
2
  The JFMIP is a joint undertaking of the United States Department of the Treasury, the General Accounting Office,
the Office of Management and Budget, and the Office of Personnel Management, working in cooperation with each
other and other agencies to improve financial management practices in the Federal Government.
                                                                                                           Page 7
                         Improvements Are Needed for Subsequent
                           Integrated Financial System Testing

          •   Department of the Treasury requirements.
          •   Office of Management and Budget guidance.
          •   GAO concerns from either its financial statement audits or its High Risk series.
          •   Private sector Generally Accepted Accounting Principles.
          •   IFS System Requirements Report requirements.
          •   IFS financial management processes.
III.   Reviewed the major SIT Cycle 1 test documents, which included the Test Plan, the Test
       Schedule, the file of test cases, and the Requirements Traceability Verification Matrix
       (RTVM) that maps accounting requirements to the corresponding test cases.
IV.    Interviewed IRS Subject Matter Experts involved with the Computer Lab operation to
       define their role in the implementation process.
V.     Reviewed 23 test cases that related to the 9 JFMIP financial requirement areas shown in
       Step I. above, out of the total of 168 SIT Cycle 1 test cases, to identify administrative
       compliance with test development criteria (e.g., requirements listed, post-condition listed,
       correct/complete general ledger postings, etc.). We observed the actual tests being
       conducted for 11 of the 23 test cases and reviewed the corresponding test folders. Also,
       we reviewed the RTVM for traceability to individual test cases and general completeness.




                                                                                           Page 8
                        Improvements Are Needed for Subsequent
                          Integrated Financial System Testing

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Thomas J. Brunetto, Audit Manager
Bobbie M. Draudt, Senior Auditor
S. Kent Johnson, Senior Auditor
Gwenevere Bryant-Hill, Auditor
Chinita Coates, Auditor
Richard E. Louden, Auditor
Peter L. Stoughton, Auditor




                                                                                      Page 9
                        Improvements Are Needed for Subsequent
                          Integrated Financial System Testing

                                                                 Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Chief Information Officer OS:CIO
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Chief Financial Officer OS:CFO




                                                                      Page 10
Improvements Are Needed for Subsequent
  Integrated Financial System Testing

                                            Appendix IV


Management’s Response to the Draft Report




                                                 Page 11
Improvements Are Needed for Subsequent
  Integrated Financial System Testing




                                         Page 12
Improvements Are Needed for Subsequent
  Integrated Financial System Testing




                                         Page 13
